NO. 20-44

In the

Supreme Court of tfje SJntteti States;
In RE: DAVID A GOLDEN (G.),
Petitioner,

PROOF OF SERVICE
I, David Golden, do declare that on this date, October 29th, 2020,1 did serve on
each party to the above proceeding or on that party’s counsel, and on every other
person required to be served, three copies of the enclosed Petition for Rehearing in
accordance with Supreme Ct. Rule 33.1, by depositing three bound copies of this
document in the United States mail properly addressed to each recipient, with firstclass postage prepaid.
Further, I do declare that I attempted to contact this Court to ascertain whether
40 copies in booklet format, or a single copy could be provided (in compliance with
this Courts 4/15/20 dated memo). The Court failed to return my phone calls, hence
only one copy has been provided. As such, I request this Court to provide additional
time to prepare and mail the 40 bound booklet copies, if such copies should be
required.

The names and addresses of those served are:
Bob Ferguson
Washington State Attorney General
1125 Washington St. SE, PO BOX 40100
OLYMPIA, WA 98504-0100

Jeffrey Wall
Solicitor General, Room 5616
US DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVE, NW
WASHINGTON, DC 20530-0001

Ashley Burns
US Attomeyz’ Office
700 Stewart St. Suite 5220
Seattle, WA 98101

District Judge Ronald Leighton
US Courthouse Room 3100
1717 Pacific AVE
Tacoma, WA 98402-3200

Ninth Circuit Ct. of Appeals
Chief Circuit Judge Sidney Thomas
95 7th STREET
SAN FRANCISCO, CA 94103

William P. Barr
US Attorneyz’ Office
950 Pennsylvania AVE NW
Washington, DC 20530

Brian Moran
US Attomeyz’ Office
700 Stewart St. Suite 5220
Seattle, WA 98101

I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 29th, 2020.

David Golden
3459 US 75 AVE
Hull, IA 51239

V

